      DEPARTMENT OF HEALTH & HUMAN SERVICES                             Office of Inspector General


                                                                         Washington, D.C. 20201




July 1, 2011

TO:            Donald M. Berwick, M.D.
               Administrator
               Centers for Medicare & Medicaid Services


FROM:          /Lori S. Pilcher/
               Acting Deputy Inspector General for Audit Services


SUBJECT:       Review of Practitioner Compliance With the Requirements of the Hurricane
               Katrina Health-Care-Related Professional Workforce Supply Grant for the
               Greater New Orleans Area (A-06-09-00051)


Attached, for your information, is an advance copy of our final report on practitioner compliance
with the requirements of the Hurricane Katrina health-care-related professional workforce supply
grant for the Greater New Orleans area. We will issue this report to the Louisiana Department of
Health and Hospitals within 5 business days.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Brian P. Ritchie, Assistant Inspector General for the Centers for Medicare
& Medicaid Audits at (410) 786-7104 or through email at Brian.Ritchie@oig.hhs.gov or Patricia
Wheeler, Regional Inspector General for Audit Services, Region VI, at (214) 767-8414 or
through email at Trish.Wheeler@oig.hhs.gov. Please refer to report number A-06-09-00051.


Attachment
     DEPARTMENT OF HEALTH & HUMAN SERVICES                               Office of Inspector General

                                                                         Office of Audit Services, Region VI
                                                                         1100 Commerce Street, Room 632
                                                                         Dallas, TX 75242
July 6, 2011

Report Number: A-06-09-00051

Ms. Gerrelda Davis
Director
Bureau of Primary Care & Rural Health
Louisiana Department of Health and Hospitals
628 N. 4th Street
P.O. Box 3118
Baton Rouge, LA 70821-3118

Dear Ms. Davis:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Practitioner Compliance With the Requirements of
the Hurricane Katrina Health-Care-Related Professional Workforce Supply Grant for the
Greater New Orleans Area. We will forward a copy of this report to the HHS action official
noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(214) 767-8414 or contact Michelle Richards, Audit Manager, at (214) 767-9202 or through
email at Michelle.Richards@oig.hhs.gov. Please refer to report number A-06-09-00051 in all
correspondence.

                                                 Sincerely,


                                                 /Antonio Wilkinson/ for
                                                 Patricia Wheeler
                                                 Regional Inspector General
                                                   for Audit Services


Enclosure
Page 2 – Ms. Gerrelda Davis


Director Reply to HHS Action Official:

Mr. Rodney Benson
Director
Office of Acquisition and Grants Management
Centers for Medicare & Medicaid Services
Mail Stop C2-22-08
7500 Security Boulevard
Baltimore, MD 21244-1850
   Department of Health & Human Services
              OFFICE OF
         INSPECTOR GENERAL




REVIEW OF PRACTITIONER COMPLIANCE
  WITH THE REQUIREMENTS OF THE
        HURRICANE KATRINA
HEALTH-CARE-RELATED PROFESSIONAL
 WORKFORCE SUPPLY GRANT FOR THE
    GREATER NEW ORLEANS AREA




                         Daniel R. Levinson
                          Inspector General

                             July 2011
                           A-06-09-00051
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                              Notices


       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov



Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post
its publicly available reports on the OIG Web site.


OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable,
a recommendation for the disallowance of costs incurred or claimed,
and any other conclusions and recommendations in this report represent
the findings and opinions of OAS. Authorized officials of the HHS
operating divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Section 6201(a)(4) of the Deficit Reduction Act of 2005 authorizes the Centers for Medicare
& Medicaid Services (CMS) to award the Louisiana Department of Health and Hospitals (DHH),
Bureau of Primary Care & Rural Health (the Bureau), a Professional Workforce Supply Grant
(the Federal grant) to restore access to health care in communities impacted by Hurricane
Katrina. The $50 million Federal grant funds payments to licensed health care professionals for
retention and recruitment and covers the period March 1, 2007, through September 30, 2012.
(As of September 30, 2009, all of the Federal grant funds had been distributed.)

Pursuant to the Federal grant requirements, funds were to be distributed in one-time payments to
individual practitioners based on the incentive options they chose. The incentives offered were
payments for student loans, of malpractice insurance premium expenses, for contract execution
(sign-on bonuses), of income guarantees, of health information technology continuing education
expenses, and of relocation expenses. Practitioners could have chosen more than one incentive
option and received a payment not to have exceeded the limits set forth in the Federal grant for
each practitioner type. Interested practitioners were required to submit applications for funding
and sign contracts agreeing to, among other things, provide services for 3 years in the Greater
New Orleans area and repay Federal grant funds with interest if the contract terms were breached.
Practitioners who received Federal grant funds for student loan repayment were required to pay
down their student loans and furnish documentation showing that they had done so.

Pursuant to Department of Health & Human Services grant administration regulations (45 CFR
§ 92.40(a)), the Bureau, as the grantee, is responsible for managing the day-to-day operation of
grant-supported activities and must monitor grant-supported activities to assure compliance with
applicable Federal requirements and achievement of performance goals.

OBJECTIVE

Our objective was to determine whether the practitioners who received payments under the
Federal grant were performing in accordance with the Bureau’s obligations under the Federal
grant.

SUMMARY OF FINDINGS

The practitioners who received payments under the Federal grant did not always perform in
accordance with the Bureau’s obligations under its Federal grant. Of the 100 practitioners
included in our sample, 33 were in compliance with the Federal grant requirements, but 67, who
received Federal grant funds totaling $3,163,204, were not. These errors occurred because the
Bureau did not follow its existing policies and procedures or did not have adequate policies and
procedures to ensure that its contracts with practitioners obligated them to meet the
3-year service requirements, that practitioners were monitored for compliance with the Federal
grant requirements, and that corrective action was taken for practitioners not in compliance.




                                                i
Based on our sample results for the period March 1, 2007, through January 31, 2009, we
estimated that the Bureau paid at least $13,629,287 of Federal grant funds to an estimated
509 practitioners who were not in compliance with the Federal grant requirements.

RECOMMENDATIONS

We recommend that the Bureau (1) refund to CMS $13,629,287 for the estimated Federal grant
funds paid to practitioners who were not in compliance with the Federal grant requirements
during our audit period, (2) implement adequate policies and procedures to monitor practitioners’
compliance with the Federal grant requirements, and (3) take corrective action for those
practitioners not in compliance after our audit period.

BUREAU COMMENTS

In written comments on our draft report, the Bureau outlined the actions it has taken to address
the findings, the results of its efforts to date, and the actions it plans to take in the future. The
Bureau disagreed with elements of two of our findings.

The Bureau’s comments are included in their entirety as Appendix E.

OFFICE OF INSPECTOR GENERAL RESPONSE

Nothing in the Bureau’s comments caused us to revise our findings or recommendations.




                                                   ii
                                                  TABLE OF CONTENTS

                                                                                                                                     Page

INTRODUCTION......................................................................................................................1

          BACKGROUND .............................................................................................................1
              The Federal Grant ................................................................................................1
              The Bureau ...........................................................................................................2
              Review of Contract Signatures ............................................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY ...........................................................2
               Objective ..............................................................................................................2
               Scope ....................................................................................................................2
               Methodology ........................................................................................................3

FINDINGS AND RECOMMENDATIONS ............................................................................3

          PRACTITIONERS NOT PERFORMING IN ACCORDANCE
            WITH THE BUREAU’S OBLIGATIONS ................................................................4

          INADEQUATE POLICIES AND PROCEDURES ........................................................6

          RECOMMENDATIONS .................................................................................................6

          BUREAU COMMENTS .................................................................................................6

          OFFICE OF INSPECTOR GENERAL RESPONSE ......................................................7

OTHER MATTER: MISSING PRACTITIONER FILE .....................................................8

APPENDIXES

          A: SAMPLE DESCRIPTION

          B: SAMPLE RESULTS AND ESTIMATES

          C: SAMPLED PRACTITIONER CONTRACT RESULTS

          D: PRACTITIONER REQUIREMENTS NOT MET

          E: BUREAU COMMENTS




                                                                    iii
                                            INTRODUCTION

BACKGROUND

Section 6201(a)(4) of the Deficit Reduction Act of 2005 authorizes the Centers for Medicare
& Medicaid Services (CMS) to award the Louisiana Department of Health and Hospitals (DHH),
Bureau of Primary Care & Rural Health (the Bureau), a Professional Workforce Supply Grant
(the Federal grant) to restore access to health care in communities impacted by Hurricane
Katrina. The $50 million Federal grant covers the period March 1, 2007, through
September 30, 2012. (As of September 30, 2009, all of the Federal grant funds had been
distributed.)

The Federal Grant

The Federal grant provides for the distribution of funds for (1) retaining physicians and other
licensed health care professionals furnishing services in the Greater New Orleans Health
Professional Shortage Areas (HPSA) 1 of Orleans Parish, Plaquemines Parish, St. Bernard Parish,
and certain parts of Jefferson Parish and (2) recruiting such licensed professionals to provide
health care services within those HPSAs.

Pursuant to the Federal grant requirements, funds were to be distributed in one-time payments to
individual practitioners based on the incentive options they chose. The incentives offered were
payments for student loans, of malpractice insurance premium expenses, for contract execution
(sign-on bonuses), of income guarantees, of health information technology continuing education
expenses, and of relocation expenses. Practitioners could have chosen more than one incentive
option and received a payment not to have exceeded the limits set forth in the Federal grant
requirements for each practitioner type. The payment limits ranged from a maximum of $10,000
for a physical therapy assistant to $110,000 for a physician.

In approving the Federal grant, CMS specified that terms and conditions would incorporate all
terms in the Bureau’s application for the Federal grant (the grant agreement). Interested
practitioners were required to submit applications for funding and sign contracts with DHH
before receiving Federal grant funds. Each contract stated the amount of Federal grant funds the
practitioner was to receive and should have required, among other things, that the practitioner
provide designated health care services for a 3-year period at an eligible site in the Greater New
Orleans area and repay the Federal grant funds with interest if the contract terms were breached.
The Federal grant also required that practitioners receiving funds for student loan repayment pay
down their loans by the end of the month following the month in which they received the funds
and furnish documentation showing that they had done so.




1
 HPSAs have shortages of primary medical, dental, or mental health care providers and may be geographic (county
or service area), demographic (low-income population), or institutional (comprehensive health center, federally
qualified health center, or other public facility).



                                                       1
The Bureau

The Bureau administers the Federal grant, which includes contracting with practitioners to
obligate them to the terms of the Federal grant. Pursuant to Department of Health & Human
Services grant administration regulations (45 CFR § 92.40(a)), the Bureau, as the grantee, is
responsible for managing the day-to-day operation of grant-supported activities and must
monitor grant-supported activities to assure compliance with applicable Federal requirements
and achievement of performance goals.

The Bureau’s mission is to improve the health status of Louisiana residents in rural and
underserved areas. The Bureau works to support effective clinical practices and health care
organizations and to recruit and retain primary medical health care providers.

Review of Contract Signatures

After we completed our fieldwork for a previous audit, 2 we discovered that the Bureau had
identified 26 practitioner contracts that may have contained inauthentic signatures. We
conducted a separate audit addressing the signature authenticity issue (Review of Contract
Signatures for the Hurricane Katrina Health-Care-Related Professional Workforce Supply
Grant for the Greater New Orleans Area (A-06-09-00053)) using the same sample used in this
audit, in which we reviewed a third aspect of the Bureau’s administration of the Federal grant.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the practitioners who received payments under the
Federal grant were performing in accordance with the Bureau’s obligations under the Federal
grant.

Scope

The Bureau provided us with two documents listing payments for 717 practitioner contracts.
The listing showed that the Bureau had paid $25,669,298 in Federal grant funds during the
period March 1, 2007, through January 31, 2009. After removing the 26 practitioner contracts
totaling $895,000 that the Bureau previously identified as possibly having inauthentic signatures,
we selected a stratified random sample of 100 paid practitioner contracts that totaled $5,599,593.
For all of our sample items, we attempted to determine whether the practitioners were in
compliance with the Federal grant requirements. (See Appendix A for the sample description.)

We did not review the Bureau’s overall internal control structure. We limited our review to
obtaining an understanding of the policies and procedures the Bureau used to monitor
practitioners’ compliance with Federal grant requirements.


2
 Review of the Hurricane Katrina Health-Care-Related Professional Workforce Supply Grant for the Greater New
Orleans Area (A-06-08-00026) was issued on March 31, 2010.


                                                      2
We conducted our fieldwork at the Bureau’s office in Baton Rouge, Louisiana, and at
practitioner work sites in the Greater New Orleans area.

Methodology

To accomplish our objective, we:

   •   reviewed applicable Federal laws, regulations, and guidance;

   •   reviewed the Bureau’s policies and procedures related to monitoring practitioners’
       compliance with Federal grant requirements;

   •   interviewed Bureau management officials to obtain an understanding of the Bureau’s
       process for monitoring practitioners;

   •   obtained documents listing paid practitioner contracts for the period March 1, 2007,
       through January 31, 2009;

   •   selected a stratified random sample of 100 of these paid contracts (Appendix A);

   •   reviewed the Bureau’s files, which included the practitioner contracts, for each sampled
       contract;

   •   interviewed each of the 100 practitioners and reviewed documentation provided by
       practitioners and their employers, such as payroll and student loan payment records; and

   •   discussed the results of our review with Bureau management officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                         FINDINGS AND RECOMMENDATIONS

The practitioners who received payments under the Federal grant did not always perform in
accordance with the Bureau’s obligations under its Federal grant. Of the 100 practitioners
included in our sample, 33 were in compliance with the grant requirements, but 67, who received
Federal grant funds totaling $3,163,204, were not. These errors occurred because the Bureau did
not follow its existing policies and procedures or did not have adequate policies and procedures
to ensure that its contracts with practitioners obligated them to meet the 3-year service
requirements, that practitioners were monitored for compliance with the Federal grant
requirements, and that corrective action was taken for practitioners not in compliance.

Based on our sample results for the period March 1, 2007, through January 31, 2009, we
estimated that the Bureau paid at least $13,629,287 of Federal grant funds to an estimated


                                                3
509 practitioners who were not in compliance with the Federal grant requirements. (See
Appendix B for the sample results and estimates and Appendix C for the sampled practitioner
contract results.)

PRACTITIONERS NOT PERFORMING IN ACCORDANCE
WITH THE BUREAU’S OBLIGATIONS

Federal Grant Requirements

The Bureau’s agreement with CMS states that the Bureau would ensure that practitioners meet
the following Federal grant requirements:

    •    sign contracts agreeing to provide a minimum of 3 years of service,

    •    submit timely quarterly reports summarizing their services as proof that they were
         fulfilling their requirements, 3

    •    work full time,

    •    use any student loan repayment funds they receive to pay down their loans by the end of
         the month after they receive the funds and furnish documentation to the Bureau showing
         that they have done so,

    •    work at sites located in Region One HPSAs 4 appropriate for the practitioners’ disciplines
         and approved by the Bureau in advance,

    •    have their contract end dates extended if they are absent from their practice sites for more
         than 7 weeks in any service year,

    •    provide clinical service, and

    •    be eligible for Federal grant funds before receiving them. 5

Practitioner Contracts Specified Service Periods of Less Than 3 Years

The Bureau executed contracts with 26 practitioners that specified service periods of less than
3 years. For example, one contract specified a starting date of November 30, 2007, and an


3
 The grant agreement states that failure to provide timely quarterly reports would be considered grounds for default
and would subject the practitioner to penalties, including repayment of the grant funds.
4
 Region One is defined by DHH. All of Orleans, Plaquemines, and St. Bernard Parishes were designated Region
One HPSAs for primary care, dental, and mental health care. Although all of Jefferson Parish was designated as a
Region One HPSA for mental health care, only certain zip codes of the parish were designated as primary care and
dental HPSAs.
5
 For example, the grant agreement specified that practitioners already working in Louisiana HPSAs outside of
Region One were to be considered ineligible for Federal grant funds.


                                                         4
ending date of September 30, 2010, a total term of 2 years and 10 months. Bureau officials
stated that Bureau employees had made errors when they prepared the contract documents.

Practitioners Did Not File Quarterly Reports

Sixteen practitioners in our sample had not provided any quarterly reports to the Bureau at the
time of our fieldwork.

Practitioners Not Working Full Time

Sixteen practitioners did not work full time during all or part of their service periods. For
example, one practitioner worked only 99 clinical hours in one quarter, an average of
8.25 clinical hours per week.

Practitioners Did Not Spend Federal Grant Funds Appropriately

Fifteen practitioners who received Federal grant funds for student loan repayment did not use
any of the funds or used only a portion of the funds to pay down their student loans.

Practitioners Not Working at Eligible Sites

Fourteen practitioners were not working at eligible sites during all or part of their contract
periods. The Bureau approved several of these practice sites in error. For example, the Bureau
allowed a practitioner to work in a dental clinic that was not located in a Region One dental
HPSA. Bureau officials stated that they had mistakenly approved the contract because the name
of the dental practice contained the name of a parish that is located in a Region One dental
HPSA. Additionally, some practitioners changed practice sites without prior approval from the
Bureau. The Bureau did not discover these changes because either the practitioners did not file
an up-to-date quarterly report or the Bureau did not review the reports received from the
practitioners.

Practitioners Absent More Than 7 Weeks Without Contract Extension

Four practitioners were absent from their practice sites for more than 7 weeks. Two practitioners
were working only 9 months per year, one practitioner took 12 weeks of maternity leave, and one
practitioner was on military deployment for more than 7 weeks. The Bureau had not extended
the contract end dates for any of these practitioners as of the end of our fieldwork.

Practitioner Did Not Provide Clinical Services

One practitioner did not provide clinical services. She worked in a quality assurance position
reviewing medical records.




                                                 5
Practitioner Not Eligible To Receive Federal Grant Funds

One practitioner was not eligible to receive Federal grant funds because she was working in a
Louisiana HPSA outside of Region One when she was awarded the funds.

INADEQUATE POLICIES AND PROCEDURES

These errors occurred because the Bureau did not follow its existing policies and procedures or
did not have adequate policies and procedures to ensure that its contracts with Federal grant
recipients obligated them to meet the 3-year service requirements, that practitioners were
monitored for compliance with the Federal grant requirements, and that corrective action was
taken for practitioners found to be out of compliance. (See Appendix D for details of the
individual errors.)

RECOMMENDATIONS

We recommend that the Bureau (1) refund to CMS $13,629,287 for the estimated Federal grant
funds paid to practitioners who were not in compliance with the Federal grant requirements
during our audit period, (2) implement adequate policies and procedures to monitor practitioners’
compliance with the Federal grant requirements, and (3) take corrective action for those
practitioners not in compliance after our audit period.

BUREAU COMMENTS

In written comments on our draft report, the Bureau outlined the actions it has taken to address
the findings, the results of its efforts to date, and the actions it plans to take in the future.

The Bureau disagreed with elements of two of our findings:

   •   Regarding our finding that 14 practitioners were not working at eligible sites during all or
       part of their contract periods, the Bureau stated that 2 of the 14 practitioners, a licensed
       clinical psychologist and a nurse, were employed at eligible sites.

   •   With respect to our finding that one practitioner was not eligible to receive Federal grant
       funds because she was working in a Louisiana HPSA outside of Region One when she
       was awarded funds, the Bureau stated that the practitioner is a registered nurse who is
       allowed to work in any HPSA. The Bureau added that the practitioner had accepted a
       temporary part-time job at a hospital in Baton Rouge, Louisiana, until the position she
       had accepted at a New Orleans hospital became available.

In response to our recommendation that it refund $13,629,287 for the estimated Federal grant
funds paid to practitioners who were not in compliance with the grant requirements, the Bureau
stated that in several cases practitioners were not at fault and specifically referred to practitioners
whose contracts specified periods of less than 3 years. The Bureau stated that it believes that
recoupment of funds from practitioners should be enforced for those practitioners who did not
maintain their eligibility.



                                                   6
The Bureau’s comments are included in their entirety as Appendix E.

OFFICE OF INSPECTOR GENERAL RESPONSE

Regarding the two findings with which the Bureau disagreed:

   •   The Bureau is correct in stating that the licensed clinical psychologist and the nurse were
       employed at eligible sites. However, the practitioners were not employed at eligible sites
       when their contracted service periods began.

   •   The grant agreement specified that practitioners already working in Louisiana HPSAs
       outside of Region One were to be considered ineligible for Federal grant funds. Nurses
       were not excluded from this requirement.

Regarding our recommendation that the Bureau refund $13,629,287 for the estimated Federal
grant funds paid to practitioners who were not in compliance with the grant requirements, costs
must conform to the terms and conditions of the grant award to be allowable (2 CFR part 225,
Appendix A, C.1.d.). In approving the grant, CMS stated that the terms and conditions of the
award would incorporate all terms in the Bureau’s application, which specifies that every
participant will enter into a contract to meet the service requirements of the program for a 3-year
commitment period and that recipients must work at sites located in Region One HPSAs to be
eligible for grant funds. The application provided that the Bureau would use the contract to
obligate the recipient to the terms of the grant. By not ensuring that the contracts specified a
3-year commitment period and that recipients were eligible, the Bureau did not comply with the
terms of the Federal grant award. Pursuant to U.S. Department of Health & Human Services
grant administration regulations (45 CFR § 92.43(a)(2)), if a grantee (the Bureau) fails to comply
with the terms of a Federal award, the administering agency (CMS) may disallow all or part of
the cost of the activity that is not in compliance.

Thus, nothing in the Bureau’s comments caused us to revise our findings or recommendations.




                                                 7
                  OTHER MATTER: MISSING PRACTITIONER FILE

The Bureau did not have an application, supporting documentation, or any other information for
one of the sampled practitioners. The practitioner’s name was not listed on any of the Bureau’s
applicant or awardee lists. We located her using information the Bureau obtained from the
State’s contracting department and determined that she was meeting the Federal grant
requirements. Because the Bureau did not have records on this practitioner, the Bureau did not
know that she had received funds under the Federal grant or where she worked. Thus, it was
impossible for the Bureau to ensure that she was meeting all of the Federal grant’s requirements
before our review. Bureau officials stated that they did not know why they did not have files for
this practitioner and that they will compare the State’s payment records for the Federal grant
with the practitioner files to determine whether any other files are missing.




                                                8
APPENDIXES
                                                                                                     Page 1 of 2


                             APPENDIX A: SAMPLE DESCRIPTION 1

POPULATION

The sampling population was practitioner contracts for Federal grants that were paid from
March 1, 2007, through January 31, 2009, for services that have been or will be furnished in the
Greater New Orleans Health Professional Shortage Area.

SAMPLING FRAME

We obtained from the Louisiana Department of Health and Hospitals (DHH), Bureau of Primary
Care & Rural Health (the Bureau), two documents listing all encumbrances and expenditures for
fiscal years 2008 and 2009. We confirmed that no contracts were paid in fiscal year 2007. The
two documents identified payments for 717 practitioner contracts. The Bureau identified 26 of
the paid contracts, totaling $895,000, as possibly having inauthentic signatures; we removed
these contracts from the sampling frame. Thus, 691 practitioner contracts with payments totaling
$24,774,298 remained.

SAMPLE UNIT

The sample unit was a paid practitioner contract.

SAMPLE DESIGN

We used stratified random sampling, defining each stratum by paid amount, as shown below.

        Stratum One: $70,000 and more—104 paid contracts

        Stratum Two: $20,000 to $69,999—171 paid contracts

        Stratum Three: Less than $20,000—416 paid contracts

SAMPLE SIZE

We selected 100 practitioner contracts that were paid as of January 31, 2009. We randomly
selected 33 from stratum two and stratum three and 34 from stratum one.

SOURCE OF RANDOM NUMBERS

We used Office of Inspector General, Office of Audit Services, statistical software.



1
 We used the sample that was used in the Review of Contract Signatures for the Hurricane Katrina
Health-Care-Related Professional Workforce Supply Grant for the Greater New Orleans Area (A-06-09-00053).
Although the sample selection was the same for both reviews, the objectives and characteristics to be measured were
different.
                                                                                    Page 2 of 2


METHOD OF SELECTING SAMPLE ITEMS

We consecutively numbered the sample units in the sampling frame from 1 to 691. We
generated 34 random numbers ranging from 1 to 104 for stratum one, 33 random numbers
ranging from 105 to 275 for stratum two, and 33 random numbers ranging from 276 to 691 for
stratum three. After generating the 100 random numbers, we selected the corresponding frame
items.

ESTIMATION METHODOLOGY

We used Office of Inspector General, Office of Audit Services, statistical software to estimate
the number of paid practitioners who were not in compliance with the Federal grant requirements
and the estimated dollar value of Federal grant funds paid to those practitioners.
                    APPENDIX B: SAMPLE RESULTS AND ESTIMATES


                                              Sample Results


                                                                         Number of
                                                                        Practitioners
Stratum      Frame           Value of          Sample     Value of         Not in       Unallowable
              Size            Frame             Size      Sample        Compliance       Payments

   1             104      $11,426,032.00          34    $3,740,000.00        18         $1,858,611.16
   2             171        7,328,073.18          33     1,379,592.71        22            909,592.71
   3             416        6,020,192.54          33       480,000.00        27            395,000.00
  Total          691      $24,774,297.72         100    $5,599,592.71        67         $3,163,203.87




                 Estimates of Noncompliance With Federal Grant Requirements
                      (Limits Calculated for a 90-Percent Confidence Interval)

                            Estimated number of                      Estimated percent of
                       practitioners not in compliance          practitioners not in compliance
                       with Federal grant requirements          with Federal grant requirements

Point estimate                          509                                73.72%
Lower limit                             458                                66.35%
Upper limit                             560                                81.10%



                 Estimated amount of Federal grant funds paid
                      to practitioners not in compliance
                       with Federal grant requirements

Point estimate                    $15,377,902
Lower limit                       $13,629,287
Upper limit                       $17,126,516
                                                 Page 1 of 3


APPENDIX C: SAMPLED PRACTITIONER CONTRACT RESULTS



                          Unallowable Federal
           Sample Item     Grant Payments
                      1                  $0.00
                      2            110,000.00
                      3            110,000.00
                      4            110,000.00
                      5              70,000.00
                      6                   0.00
                      7            110,000.00
                      8                   0.00
                      9                   0.00
                     10                   0.00
                     11            110,000.00
                     12            110,000.00
                     13            110,000.00
                     14                   0.00
                     15            108,611.16
                     16                   0.00
                     17                   0.00
                     18            110,000.00
                     19            110,000.00
                     20                   0.00
                     21                   0.00
                     22                   0.00
                     23            110,000.00
                     24                   0.00
                     25            110,000.00
                     26            110,000.00
                     27            110,000.00
                     28              70,000.00
                     29                   0.00
                     30                   0.00
                     31            110,000.00
                     32                   0.00
                     33              70,000.00
                     34                   0.00
                     35                   0.00
                     36              55,000.00
                     37                   0.00
                     38              55,000.00
                                      Page 2 of 3




               Unallowable Federal
Sample Item     Grant Payments
          39              55,000.00
          40              55,000.00
          41              55,000.00
          42              55,000.00
          43                   0.00
          44              55,000.00
          45              55,000.00
          46                   0.00
          47              50,000.00
          48              49,592.71
          49                   0.00
          50                   0.00
          51              40,000.00
          52              40,000.00
          53                   0.00
          54                   0.00
          55              30,000.00
          56              30,000.00
          57              30,000.00
          58                   0.00
          59              30,000.00
          60                   0.00
          61                   0.00
          62              30,000.00
          63              30,000.00
          64              30,000.00
          65              30,000.00
          66              30,000.00
          67              20,000.00
          68              15,000.00
          69                   0.00
          70              15,000.00
          71              15,000.00
          72              15,000.00
          73              15,000.00
          74              15,000.00
          75              15,000.00
          76              15,000.00
          77              15,000.00
          78              15,000.00
          79              15,000.00
                                      Page 3 of 3




               Unallowable Federal
Sample Item     Grant Payments
          80              15,000.00
          81              15,000.00
          82              15,000.00
          83              15,000.00
          84                   0.00
          85                   0.00
          86                   0.00
          87              15,000.00
          88              15,000.00
          89              15,000.00
          90              15,000.00
          91              15,000.00
          92              15,000.00
          93              15,000.00
          94              15,000.00
          95              15,000.00
          96              15,000.00
          97                   0.00
          98                   0.00
          99              10,000.00
         100              10,000.00
 Total                $3,163,203.87
                                                                                                         Page 1 of 2


                     APPENDIX D: PRACTITIONER REQUIREMENTS NOT MET

                                                                           Contracts
                                                                           Extended                   Eligible
                                                                              for                        to       Practitioner
                                                               Working    Practitioners               Receive      Meeting
              Contract     Filed     Working   Spent Federal      at       Absent for     Providing   Federal       Federal
                for      Quarterly    Full     Grant Funds     Eligible    More than       Clinical    Grant         Grant
Sample Item   3 Years     Reports     Time     Appropriately     Site       7 Weeks        Services   Funds      Requirements
          1                                                                                                          YES
          2     NO                                               NO                                                  NO
          3     NO                                                                                                   NO
          4     NO          NO                                                                                       NO
          5                                         NO                                                               NO
          6                                                                                                          YES
          7     NO                                  NO                                                               NO
          8                                                                                                          YES
          9                                                                                                          YES
         10                                                                                                          YES
         11                 NO                                                                                       NO
         12     NO                                               NO                                                  NO
         13                 NO                                                                                       NO
         14                                                                                                          YES
         15                                         NO                                                               NO
         16                                                                                                          YES
         17                                                                                                          YES
         18                            NO           NO                                                               NO
         19     NO                                                                                                   NO
         20                                                                                                          YES
         21                                                                                                          YES
         22                                                                                                          YES
         23                 NO                      NO                                                               NO
         24                                                                                                          YES
         25     NO                                  NO           NO                                                  NO
         26     NO                                                                                                   NO
         27                            NO                                                                            NO
         28                                         NO                                                               NO
         29                                                                                                          YES
         30                                                                                                          YES
         31     NO                                                                                                   NO
         32                                                                                                          YES
         33                                         NO                                                               NO
         34                                                                                                          YES
         35                                                                                                          YES
         36                                                                   NO                                     NO
         37                                                                                                          YES
         38                                                      NO                                                  NO
         39                                         NO           NO                                                  NO
         40                            NO           NO                                                               NO
         41                                         NO                                                               NO
         42     NO                                                                                                   NO
         43                                                                                                          YES
         44                            NO           NO           NO           NO                                     NO
         45                            NO           NO                                                               NO
         46                                                                                                          YES
         47                 NO                      NO                                                               NO
         48                 NO                                                                                       NO
         49                                                                                                          YES
         50                                                                                                          YES
         51                                                                   NO                                     NO
         52                                                                                  NO                      NO
         53                                                                                                          YES
         54                                                                                                          YES
                                                                                                          Page 2 of 2


                                                                            Contracts
                                                                            Extended                   Eligible
                                                                               for                        to       Practitioner
                                                                Working    Practitioners               Receive      Meeting
               Contract     Filed     Working   Spent Federal      at       Absent for     Providing   Federal       Federal
                 for      Quarterly    Full     Grant Funds     Eligible    More than       Clinical    Grant         Grant
Sample Item    3 Years     Reports     Time     Appropriately     Site       7 Weeks        Services   Funds      Requirements
          55                                                                                             NO           NO
          56                            NO                                                                            NO
          57                 NO         NO                                                                            NO
          58                                                                                                          YES
          59                            NO                                                                            NO
          60                                                                                                          YES
          61                                                                                                          YES
          62                                                      NO                                                  NO

          63                                                      NO                                                  NO
          64                                                      NO                                                  NO
          65                            NO                        NO                                                  NO
          66                                                      NO                                                  NO
          67                            NO                                                                            NO
          68     NO                                                                                                   NO
          69                                                                                                          YES
          70     NO                                                                                                   NO
          71     NO                                                                                                   NO
          72     NO                                                                                                   NO
          73     NO                     NO                                                                            NO
          74     NO                                                                                                   NO
          75     NO          NO                                                                                       NO
          76                 NO                                                                                       NO
          77                                                      NO                                                  NO
          78     NO                     NO                        NO                                                  NO
          79     NO                                                                                                   NO
          80                 NO                                   NO                                                  NO
          81                 NO         NO                                                                            NO
          82     NO                                                                                                   NO
          83                 NO                                                                                       NO
          84                                                                                                          YES
          85                                                                                                          YES
          86                                                                                                          YES
          87     NO                                                                                                   NO
          88     NO                                                                                                   NO
          89                 NO                                                                                       NO
          90                            NO                                                                            NO
          91     NO                                                                                                   NO
          92     NO                                                                                                   NO
          93                            NO                                     NO                                     NO
          94     NO                                  NO                                                               NO
          95     NO                                                                                                   NO
          96                 NO                                                                                       NO
          97                                                                                                          YES
          98                                                                                                          YES
          99                 NO         NO                                                                            NO
         100                 NO                                                                                       NO
  Total Not
  Meeting
   Federal
    Grant
Requirements     26          16         16           15           14            4             1           1            67
                                                                                                                                        Page 1 of6


                        APPENDIX E: BUREAU COMMENTS 





Bobby Jindal                                                                                                                 Bruce D. Greenstein
 GOVERNOR                                                                                                                         SECRETAR\"


                                           ~tate               of 1Louisiana
                                      Department of Health and Hospitals 

                                                     Office of Public Health 


       April 7, 2011


       Ms. Patricia Wheeler
       Regional Inspector General for Audit Services
       Office of the Inspector General
       Office of Audit Services
       1100 Commerce, Room 632
       Dallas, TX 75242

       Dear Ms. Wheeler:

       In response to your request concerning findings related to the August 2010 Department of Health
       and Human Services, Office of Inspector General (OIG) draft report number A-06-09-00051
       entitled, Review of Practitioner Compliance With the Requirements of the Hurricane Katrina
       Health-Care:.Related Professional Worlforce Supply Grallt for the Greater New Orleans Area, the
       Louisiana Department of Health and Hospitals has reviewed its findings and recommendations and
       has prepared the following a response:

       For each finding and recommendation noted in the report lUlder the section labeled Practitioners not
       performing in accordance with the Bureau's Obligations, the response is as follows:

       Finding:
       Practitioner Contracts Specified Service Periods oriess Than 3 Years
       The Bureau executed contracts wUh 26 practitioners that specified service period~ of less than 3
       years. For example, one contract specified a starting date a/November 30, 2007, and an ending dale
       ofSeptember 30, 2010, a total term 0/2 years and 10 months. Bureau offiCials stated that former
       Bureau employees had made errors when preparing the contract documents.

               Response:
               Due to the large amount of contracts being completed during that time frame, Bureau staff
               responsible for completing contracts was as diligent as possible with the limited number of
               staff assigned to process contracts. This finding is the result of human error, and these
               administrative mistakes have resulted in contracts being anywhere from 7 to 49 days short of
               the three-year obligation.

               Action to be tal{en:
               Since these contracts have expired and cannot be amended, our staff will create a document
               to certify these practitioners have completed the full three year conunitment by documenting
               their time worked after their contract date ended at their eligible sites. This document will be
               reviewed and approved by the Department's Bureau of Legal Services and program staff at
                                               BUREAU OF PRIMARY CARE & RURAL HEAU·I-I 

                            BicIll"ilie Building' 628 N. 4'" Strcet· P.O. Bo~ 3118 • llnton Rouge, l.oui~;nna 70B21-3118 

                                        Phone #: 225/342·9513' F:tX #: 225/342-5839 • IPlWIf;PI1H.LA.GOV 

                                                          "An Equol Opportunity Employcr"
                                                                                                  Page 2 of6




       the Centers for Medicare and Medicaid Services (eMS). As these docmnents are signed by
       the practitioner and employment is verified, the certification will be added to their file and
       attached to their contract confirming a full three year commitment. All updates will be
       provided to the federal funder.


Finding:
Practitioners Did Not File Ouarterlv Reports
Sixteen practitioners in our sample had not provided any quarterly reports 10 the Bureau at fhe time
ofour fieldwork

       Response: 

       Quarterly Reports were being submitted in two ways - paper submissions via facsimile (fax) 

       or online via Survey Monkey. The second quarter 0[2008 is when the change from paper to 

       electronic submissions took place. The report noted 16 practitioners did not submit quarterly 

       reports at the time of the audit. For the 161isted with this finding: 

           • 	 2 of the 16 have submitted all quarterly reports required.
           • 	 7 of the 16 have submitted quarterly reports via Survey Monkey and have been
               contacted to bring all reports current.
           • 	 7 of the 16 have not submitted any quarterly reports and attempts to reach the
               practitioner to get reports completed hilVe been made.

       Action to be taken: 

       Bureau staff will continue to make every effort to contact all practitioners until the matter is 

       resolved. If a resolution cannot be reached, files will be turned over to the Bureau of Legal 

       Services to begin the recoupment process. All updates will be provided to the federal funder. 



Finding:
Practitioners Not Workin€! Full Time
Sixteen practitioners did not workjiJll time during all or part o/their service periods. For example,
one practitioner worked only 99 clinical hours in one quarter, an average of 8.25 clinical hours per
week
       Response: 

       For the 16 with this finding: 

           • 	 6 of the 16 are working full time hours.
           • 	 6 of the 16 have not responded to our effort to contact them or we do not have current
               contact infonnation to reach the practitioner.
           • 	 4 of the 16 will be turned over to the Bureau of Legal Services to begin the
               recoupment process.

       Action to be taken: 

       Bureau staff will continue to make every effort to contact all practitioners until the matter is 

       resolved. If a resolution cannot be reached, files will be turned over to the Bureau of Legal 

       Services to begin the recoupment process. All updates will be provided to the federal funder_ 

                                                                                                                     Page 3 of6




Finding:
Practitioners Did Not Spend Federal Grant Funds Appropriate/v
Fifteen practitioners who received Federal grantfonds for student loan repayment did not use any of
the funds or used only a portion a/the/unds to pay down their student loans.
        Response: 

        The report noted 15 practitioners did not spend their federal grant funds to repay their 

        educational loans as outlined in their contracts. For the 151isted with this finding: 

           • 	 5 of the 15 have provided required proof of full payments on their educational loans.
           • 	 2 of the 15 requested changes to their incentive options, one via email 10 previous
                program staff and the other during a site visit the day before her contract was
                scheduled to end. Both were discovered during audits; unfortunately, neither
                amendment was completed_
           • 	 3 of the 15 have been contacted, have stated they used the funds as stated in the grant
                and will be sending the documentation to our office. One of these three has sent in
                partial documentation outlining accelerated payments.
           • 	 5 of the 15 have been difficult in responding and/or contacting.

       Action to be taken: 

       Bureau staff will continue to make every effort to contact all practitioners until the matter is 

       resolved. If a resolution cannot be reached, files will be turned over to the Bureau of Legal 

       Services to begin the recoupment process. All updates will be provided to the federal funder. 


Finding:
Practitioners Not Working at Eligible Sites
Fourteen practitioners were not working at eligible sites during all or part oftheir contract periods.
The Bureau approved several of these practice sites in error. Additionally, some practitioners
changed practice sites without prior approval from the Bureau. The Bureau did not discover these
changes because either the practitioners did not file an IIp-to-date quarterly report or the Bureau
did not review the reports receivedfrom the practitioners.
       Response: 

       The report noted 14 practitioners were not working at eligible sites during all or part of their 

       contract periods. For the 14 listed with this finding: 

           • 	 2 of the 14 practitioners were given a zip code exemption. It was our understanding when the
               grant program began; grantees were eligible to participate in the program jf the majority of
               their patients were living in a HPSA even if the practice was not located in a HPSA. Each
               grantee was required to provide a list of current clients with corresponding zip codes that
               program staff could verify with HPSA designation staff of the depaliment's Bureau of
               Primary Care and Rural Health. After the OIG conducted an initial audit and determined that
               this practice was not in compliance with the terms of the grant, the program discontinued this
               practice immediately. However, the practitioners were given a zip code exemption due to the
               number oftheir patients coming from a HPSA. A list of zip codes is located in their files.
           • 	 1 of the 14 practitioners is a primary care physician, but his location is not located in
               a primary care HPSA. This physician is still employed with this location.
           • 	 1 of the 14 practitioners is a licensed clinical psychologist who was employed by
               Mercy Family Center. This location is located in a mental health HPSA and meets all
               requirements of the grant.


                                      BUREAU or PRIMARY CARE & RURAL HE 1\LTH 

                     Bienville Building· 628 N. 4"' Street· P.O. Bux 3118 • BalOn Rou!,,,,. Loui.i,na 70H21-3118 

                               Phone #: 225/342-9513 • p,,-"< #: 225/342·51l39· IFlMJ7.DHHIA.GOV 

                                                "An Equal Opportunity Emrlnvcr" 

                                                                                                  Page 4 of6




           • 	 2 of the 14 were employed with the Veterans Administration Hospital and clinics at
               the time of the audit, but one has since moved to Ochsner in KelUler, LA and the
               other left the state after her contract ended.
           • 	 I of the 14 was working at East Jefferson General Hospital, which is an eligible site
               for nurses.
           • 	 I of the 14 left the New Orleans area prior to her contract end date. Her file will be
               turned over to the Bureau of Legal Services to begin the recoupment process.
           • 	 6 of the 14 have not responded to telephone calls and emails. If staff cannot make
               contact with the practitioner, their files will be turned over the Bureau of Legal
               Services to begin the recoupment process.

       Action to be taken: 

       Bureau staff will continue to make every effort to contact all practitioners until the matter is 

       resolved. If a resolution cannot be reached, files will be turned over to the Bmeau of Legal 

       Services to begin the recoupment process. AU updates will be provided to the federal funder. 



Finding:
Practitioners Absent More Than 7 weeks Without Contract Extension
Four practitioners were absent from their practice sites for more than 7 weeks. Two practitioners
were working only 9 months per year; one practitioner took 12 weeks of maternity leave; and one
practitioner was on military deployment form more than 7 weeks. The Bureau has not. extended the
contract end dates for any ofthese practitioners as ofthe end ofour fieldwork
        Response: 

        For the 4 with this finding: 

            • 	 1 ofthe 4 practitioners was called to active duty twice during his obligation. The first
                call to active duty was discovered by the current staff when his current deployment
                was scheduled. He contacted us regarding the second deployment, requested a
                release from his obligation, and was denied a release based on program policy. He
                will be required to complete his obligation upon his return. He is scheduled to return
                April 201 I.
           • 	 I of the 4 practitioners works as a 9-month faculty member and was approved in this
                capacity.
            • 	 2 of the 4 practitioners have not responded to our efforts to reach them. We will
                continue our efforts to contact all practitioners until the matter is resolved.

       Action to be taken: 

       Bureau staff will continue to make every effort to contact all practitioners until the matter is 

       resolved. If a resolution cannot be reached, files will be turned over to the Bureau of Legal 

       Services to begin the recoupment process. All updates will be provided to the federal funder. 



Finding:
Practitioner Did Not Prov;de Clinical Services
One practitioner did not provide clinical services.     She worked in a quality assurance position
reviewing medical records.
                                                                                                                     Page 5 of6




       Response:
       According to the application for this practitioner, the listed hours worked at University Hospital in
       different areas is misleading. However, a copy of the job description was faxed to Mr. Lee Smith,
       Program Coordinator at that time. The practitioner signed the contract on March 3, 2008; the contract
       was approved June 30, 2008; the job description was faxed to this office on July 8, 2008 and the
       payment was processed on July 23, 2008. This contract should have been cancelled once the job
       description was received and reviewed. The job description details non-clinical duties.


Finding:
Practitioner Not Eligible to Receive Federal Grant Funds
One practitioner was not eligible to receive Federal grant fonds because she was lVorking in a
Louisiana HPSA outside ofRegion One when she was awarded thefunds.
        Response:
        The grant terms require that the Bureau award funds only to applicants not already practicing
        in a Louisiana HPSA. This practitioner is a registered nurse who is allowed to work in any
        type ofHPSA according to the program policy. This practitioner had accepted a part-time job
        at Our Lady of the Lake Hospital in Baton Rouge, Louisiana, until the position she had
        initially accepted at Tulane Medical Center became available on January 21, 2008. The
        position at Our Lady of the Lake Hospital in Baton Rouge, Louisiana, was a temporary
       position until her employment in New Orleans was scheduled to begin.


Recommendations:
The Bureau (1) rejimd to eMS $]3,629,287 for the estimated Federal grant fund~ paid to
practitioners who were not in compliance with the Federal grant requirements during our audit
period, (2) implement adequate policies and procedures to monitor practitioners" compliance with
the Federal grant requirements, and (3) take corrective action for those practitioners not in
compliance ajler ollr audit period

Response:
   1. 	 Practitioners in several cases were not at fault for their findings. For example, the
        practitioners whose contract dates did not reflect a full three years. This office believes that
        recoupment of funds from practitioners should be enforced for those who did not maintain
        their eligibility. OW' staff, with the assistance from the Department's Bureau of Legal
        Services, will ensure action is taken and completed to begin the recoupment process.
   2. 	 The Bureau has revised its policies and procedW'es manual for this program and has auditors
        on staff to increase monitoring activity.
   3. 	 Corrective actions have been taken to address the findings in this report as detailed
        throughout our response. For the issues that have not been resolved, the Bureau staff will
        continue to pursue a resolutiqn andlor turn the file over to the Department's Bureau of Legal
        Services to begin the recoupment process. Staff will attempt to contract practitioners for a
        period of 30 days. After this period, and no contact has been made, files will be turned over
        to the Bureau of Legal Services for recoupment.

The Bureau staff will continue to make every effort to resolve all matters that have not been settled
at the time of this response. We will provide updates to this response to our funder to ensure them

                                        BliREALI or PRI~L\RY CARB &RlIRAL IH':t\l;J'J-J 

                     Bicm·jll~   Building' 628 N. 4'" Street· P.O. Bo" 3118' Baton Roug~. ]."ui:;j~na 70821-3118 

                                 Ph""e #: 225/342-9513' r"", #: 225/342-5839' JIYlVl17:DHI-l.IA.COV 

                                                   "An Equol Opportunity Employer"
                                                                                                    Page 6 of6




that our staffis diligently working to reconcile all findings. If you have any additional questions andlor
concerns, please feel free to contact me at (225) 342-2657 or gerrelda.davis@la.gov.

Respectfully,


~~
Gerrelda Davis 

Director 



GD/cpv


cc: 	    Jeff Reynolds, Director 

         Louisiana Department of Health and Hospitals, Office of Management and Finance 

         Division of Fiscal Management 


         Clayton Williams, Assistant Secretary 

         Louisiana Office of Public Health 

